                                 Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission




                                                                                                      47
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

                                                                                                               Denali Commission
                                                                                                             510 L Street, Suite 410
                                                                                                             Anchorage, AK 99501

                                                                                                                   907.271.1414 tel
                                                                                                                  907.271.1415 fax
                                                                                                              888.480.4321 toll free
                                                                                                                    www.denali.gov

                                                                                                           INSPECTOR GENERAL



                                   INSPECTOR GENERAL’S PERSPECTIVE ON MANAGEMENT AND
                                  PERFORMANCE CHALLENGES FACING THE DENALI COMMISSION


          The OMB-required Performance and Accountability Report (the “PAR”) is largely a book
          authored by the agency’s management. However, OMB reserves one of the final sections for the
          inspector general’s perspective:

                      The PAR shall include a statement prepared by the agency’s Inspector General
                      (IG) summarizing what the IG considers to be the most serious management and
                      performance challenges facing the agency and briefly assess the agency’s
                      progress in addressing those challenges.


                                                 The PAR itself — rituals versus readers

          The PAR is one of those federal mandates that seemed like a good idea at the time. However,
          particularly at larger agencies, annual production of the voluminous document has over the years
          taken on a life of its own — where the ritual of requirements can overshadow the reassurance of
          readers. Cynics stereotype it as yet another expensive government study in which seldom has so
          much, meant so little, to so few.

          OMB itself publicly acknowledges the need to re-examine the hopes for the PAR. And each year
          the national trade association for federal accountants1 offers agencies the antidote of its CEAR2
          review process, in which a blue-ribbon panel of CPAs will critique an agency’s PAR as a
          meaningful public product. Though the Denali Commission may be smallest agency to volunteer
          for such a review, Denali’s Office of Inspector General (OIG) pays for it in hopes of enhancing
          public confidence in the agency’s audit (a key component of each PAR).

          But one must, of course, always be careful what one asks for. When the judges have their scores
          on the CEAR review panel, their pages of critique pull no punches — as Denali saw last year in
          this frustrated observation:

                      We also want to point out that the CEAR program provides many useful
                      recommendations for improving Performance and Accountability Reports and
                      Agency Financial Reports. Many of these recommendations have not been
                      reflected in the reports that Denali submits for review each year. Denali might

          1
              The Association of Government Accountants (AGA) in Alexandria, Virginia.
          2
              The Certificate of Excellence in Accountability Reporting (see www.agacgfm.org/performance/cear/).


                                                                                                                                       48
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

                    want to examine why, absent addressing the matters identified in the
                    recommendations, it is continuing to participate in the program.

         And since Denali’s OIG requested (and paid for) the panel’s review, the following comment
         seems well taken:

                    [W]e assume that the OIG also wants to improve Denali’s accountability and
                    transparency. Hence, by providing the recommendations to the Inspector General
                    (and the auditor), and that Denali’s response to the comments submitted with its
                    FY 2011 report will reflect his actions in regard to those comments [sic].

         With this in mind, Denali OIG arranged for staff from the CEAR review program to directly
         confer with the agency head, the CFO, and OIG’s contract auditor that conducts the annual
         financial audit. Based on these meetings and the panel’s critiques over several years, three
         recurring themes emerge that OIG will attempt to paraphrase: (1) management needs to publicly
         disclose program-by-program spending in the financial statements; (2) management needs to
         demonstrate its results through meaningful performance metrics; (3) management’s PAR
         narratives need to tell an inspiring story of maximized public benefit from diminished
         congressional funding.

         And these three criticisms offer a useful framework for the following discussion by OIG of the
         most significant challenges facing Denali’s management.

                                          The need for a meaningful public story:
                             Disclosing the costs of Denali programs that have come and gone

         As noted by the CEAR review panel, Denali’s management has traditionally lumped together the
         costs of all programs as a single “gross costs” total in the PAR’s financial statement for the
         year’s “cost of operations.”3 While this technically meets the legal and accounting minimums,
         it tells public readers only whether the agency’s overall spending has changed since prior years.

         That overall total fails to show public readers how the specific programs entrusted to Denali have
         varied over the agency’s life span with changing congressional priorities and support. Denali
         started in the late 1990s with only around $20 million and a mission to replace leaking fuel tanks.
         In the agency’s heyday, it had annual congressional support of well over $100 million for clinics,
         training, housing, community centers, transportation, and rural electrification. Congressional
         support today has dwindled down close to the startup funding, and now only the latter two
         programs receive new money.

         Regardless of a reader’s policy priorities and preferences, the audited financial statements in the
         PAR should clearly reveal how the agency’s work has changed over time. Nevertheless, the
         format of an agency’s financial statements is a matter that lies within the discretion of its
         management. Each year, OIG’s independent auditor opines on the financial statements presented
         by management. Neither OIG nor the auditor tell management what to write.


         3
             The Statement of Net Cost.


                                                                                                               49
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

                                     The need for a meaningful public story:
                         Disclosing what progress has been made with what’s been given

         OIG agrees with the CEAR reviewers that
         meaningful performance metrics tell the                                   EXHIBIT 1
         reader about progress in addressing social                      KEY QUESTIONS FROM
         conditions, not just the number of new                      DENALI’S DECADE AND A BILLION
         buildings opened at government expense. But
         there’s no simple answer to the question as to    Are better clinic buildings resulting in better health
         why management can’t measure like they            care?
         mean it.
                                                           Are Denali-provided power plants resulting in cheaper
                                                           “bush” electricity?
         Congress has given Denali around $1 billion
         over the past 13 years, but the PAR has yet to    Are Denali-provided tank farms resulting in cheaper
         quantitatively show that all this construction    “bush” fuel?
         has improved the access to health care, the
         affordability of fuel and electricity, or the     Is training for construction projects resulting in long-
                                                           term careers?
         placement in long-term employment.
                                                           Are Denali-provided facilities reducing — versus
         But this is not new material. For years, OIG’s    extending — the dependence on future federal funding?
         reports to the agency head and Congress
         have cited this shortcoming. For instance,        Has Denali pioneered “silver bullet” solutions
                                                           applicable to other states?
         OIG’s Semiannual Report to Congress
         (November 2007) stated:                           Do projects function as capacity-building “barn
                                                           raisings” (versus mere short-term cash infusions)?
             Compounding the issue is the lack of an
             Alaskan consensus as to the role of           Has Denali leveraged rural schools as the major local
                                                           facility?
             evaluation among planners, social
             scientists, and the commission’s own          Has Denali effectively partnered with the military as the
             staff. The following are some of the          state’s largest employer?
             justifications offered by various parties
             around the state for the lack of outcome      Has Denali effectively leveraged federal single audits as
                                                           a grants monitoring tool?
             measurements for programs like the
             Denali Commission: (1) outcomes are           Has Denali strengthened regional hubs as an alternative
             not measurable; (2) criteria (bench-          to urban migration?
             marks) are not available; (3) assistance
             is a right (or reparation) given the          Has Denali pioneered interventions for troubled projects
                                                           (versus just adding money)?
             policy area or the history; (4) data is not
             available; (5) data collection should be      Is Denali helping coastal communities benefit from the
             specified up front; (6) grantees should       opening of new arctic shipping routes?
             do their own evaluations; (7) Congress
             funds physical uses rather than results;      Have Denali projects preserved “priceless” qualities of
                                                           Alaska that are valued by the rest of the nation?
             (8) evaluations are the inspector gen-
             eral’s problem.

         And a sidebar in OIG’s Semiannual Report to Congress (May 2010) detailed the continuing
         uncertainty over outcomes as “key questions from Denali’s decade and a billion.” That chart is

                                                                                                                       50
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

      repeated here verbatim as Exhibit 1.

      In fairness to Denali’s management, it has from time to time attempted to retain contractors for
      evaluations of its programs. Despite the effort, the studies too often reflect beneficiaries’
      preference for further funding (inputs) more than the metrics of a better life (outcomes). For
      instance, OIG’s Semiannual Report to Congress (Nov. 2007) noted:

              During FY 2007, the commission contracted with a research firm for a
              $200,000+ review of the agency’s accomplishments. That review detailed the
              agency’s structure, the buildings built, the populations trained, and the
              interviewees that were pleased to get the commission’s funding. The review did
              not measure the degree to which the commission’s projects are making “bush”
              Alaska a better (e.g., healthier) place to live.

      Management also realistically recognizes the tenuous linkage between rigorous studies of good
      works and the funding that is ultimately awarded through the competitive national politics of the
      congressional process. Academics and auditors have also long bemoaned the reality that the raw
      politics of bringing home the bacon can easily trump the most artfully crafted accountability
      reports.

      Management has also arguably faced mixed signals from Congress as to what should be
      measured to demonstrate obedience to congressional intent. On one hand, Denali has inherited
      the longstanding federal goal of promoting universal basic “infrastructure” throughout the states
      — the assumption that all Americans are entitled to certain basics of life regardless of where they
      live. For instance, the FCC tax on consumers for the Universal Service Fund spreads the cost of a
      basic household phone around the country (the assumption that every American should be able to
      dial 911).

      In fact, Denali’s original strategic plan idealistically aspired that “[a]ll Alaska, no matter how
      isolated, will have the physical infrastructure necessary to protect health and safety and to
      support self sustaining economic development.” And counts of buildings erected could arguably
      be an appropriate metric to assess the progress in extending infrastructure to the far reaches of
      the nation.

      On the other hand, past OIG reports have noted management’s reluctance to employ metrics that
      would candidly disclose the small size of the communities that are often served by its grants. But
      the truth is out there: projects throughout Denali’s subject areas have often been awarded to tiny
      settlements with less than 200 people.

      For instance, OIG’s Semiannual Report to Congress (May 2010) found that 43 of the 139
      projects in Denali’s transportation program had been for improvements in locations with a
      population of less than 200 (examples were Elfin Cove and False Pass, pop. 30 and 39).
      The same report listed 13 power plants and tank farms that Denali had installed in hamlets with a
      population of 100 or less (examples were Lime Village and Nikolski, est. pop. of 28 and 31).
      OIG further listed eight clinics built in places with a population of 100 or less (examples were
      Alatna and Beaver, pop. of 41 and 64).



                                                                                                            51
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

         In the same report to Congress, OIG further noted that Denali’s program for rural electrification
         (power plants and tank farms) sent most of its funding to a state agency and a utility cooperative
         that served only a fraction of the state’s population. For instance, the cooperative served around
         50 of the most challenging locations that together represented less than 4% of Alaska’s
         population.

         In short, one of Denali’s most difficult and uncomfortable issues has always been the size of
         community that warrants public support (versus self-support). While national lore may abstractly
         decry construction to “nowhere,” the choices are very real — and very serious — for rural
         families that must go without what most of America takes for granted.

         However, Congress has sent mixed messages over the years as to what it expects Denali to
         accomplish. To the extent that the goal has been universalization of the nation’s “infrastructure,”
         Denali’s counts of construction in colorful bar charts may be a fair performance measure.

         In contrast, proof that life is good remains elusive if Congress intends the “Other Alaska” to
         vanish from the ranks of the “Other America” (which inspired creation of regional commissions
         in the first place). Those mixed messages continue to frustrate Denali’s development of
         meaningful measures, with complexities that the passing snapshot of a CEAR review shouldn’t
         be expected to recognize.

                                              The need for a meaningful public story:
                                              One last look — or a retooled mission?

         Denali’s management has consistently, and persistently, written about (1) the great need in bush
         Alaska, (2) the tough logistics of building out there, and (3) the tougher challenge of continuing
         to do it when Congress no longer sends the money. The CEAR reviewers seem to nevertheless
         expect an inspiring story of management’s ingenuity in doing the most with what little it gets.

         Management has in fact published its public report on Sustainable Rural Communities,4 with its
         excellent discussion of the complications of extending America’s basic facilities into rural
         Alaska. That publication shows Denali’s maturing role in Alaska “government coordination” —
         the diplomatic magic of applying Denali’s lessons-learned to help better-funded agencies do their
         best in the bush. Nevertheless, while Denali’s management has now quite effectively told its
         story, Congress has still decided to send its money elsewhere.

         Congress sent Denali an FY 2011 base appropriation of just under $11 million — which
         Congress then neutralized with a $15 million rescission. The uncertain mechanics of paying back
         Denali’s “debt” ultimately required the safe harbor of a Comptroller General’s interpretation as
         to how the rescission legislation should be legally implemented in practice.5 (In effect, Denali
         claimed that it had already spent the money.) Suffice it to say, meaningful planning was
         frustrated for much of FY 2011 — including public confidence in the annual “work plan” that
         the enabling act envisions as a blueprint for the best use of available funding.

         4
           Denali Commission, Sustainable Rural Communities (July 2010) at www.denali.gov (use the website’s programs link to
         government coordination — documents).
         5
             See GAO, Denali Commission—Fiscal Year 2011 Rescission, # B-322162 at www.gao.gov.


                                                                                                                                52
Agency Financial Report (AFR)

Inspector General’s Perspective on Management & Performance Challenges Facing the Denali Commission

         Another anticipated source of significant Denali funding has been Congress’ continuing
         resolutions for the transportation funding that originated in SAFETEA-LU (where Congress
         created Denali’s transportation program). Unfortunately, disputes have also arisen over this
         funding — disputes that have also required Comptroller General interpretations to resolve.6

         Since Denali’s new funding has effectively declined to approximately its startup level, Congress
         may simply be signaling that the experiment has run its life cycle and shouldn’t expect perpetual
         appropriations. If that be the case, Congress should at least leave Denali with the unmistakable
         statutory authority to diversify its funding from nonfederal sources and from reimbursement for
         services to other agencies.7 In short, if Congress decides from a policy perspective not to fund
         the Denali Commission, Congress should at least give the agency the legal ability to fend for
         itself.

         It’s now been almost a decade since Congress first required small agencies to produce audited
         financial statements8 (which triggers the OMB requirement that these agencies produce an
         annual PAR report). But when an agency’s annual “budget authority available” falls below
         $25 million, the statute allows OMB to grant exemptions.9 In other words, the agency is deemed
         so insignificant on the federal scene that the costs of an annual audit (and a PAR report) simply
         outweigh any public benefit.

         To the extent that the Denali Commission is now fading into the federal sunset of agencies that
         lie below the horizon of $25 million, this could conceivably be its last audit, its last PAR report,
         and its last CEAR review.


                                                                                    MIKE MARSH, CPA, ESQ.
                                                                                     INSPECTOR GENERAL




         6
           See GAO, Denali Commission—Transfer of Funds Made Available through the Federal Transit Administration's
         Appropriations, # B-319189 at www.gao.gov; GAO, Denali Commission—SAFETEA-LU Funding, # B-322481 (pending for
         decision).
         7
           See discussions at Denali OIG, Semiannual Report to Congress (May 2010), pages 6-9 at www.denali-oig.org and GAO, Denali
         Commission—Authority to Receive State Grants, # B-319246 at www.gao.gov.
         8
             See the Accountability of Tax Dollars Act of 2002, P.L. 107-289.
         9
             See 31 USC 3515(e)(1).


                                                                                                                                      53
